 

U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 8, 2019

Honorable Scott S. Harris

Clerk

Supreme Court of the United States
Washington, D.C. 20543

Re: Trading Technologies International, Inc. v. IBG LLC, et al,
S.Ct No. 19-353

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
16, 2019, and placed on the docket on September 18, 2019, The government’s response is due

on October 18, 2019.

We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 18, 2019, within which to file the government’s response.

This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,

Noel J. Francisco
Solicitor General

ce: See Attached Service List
19-0353
TRADING TECHNOLOGIES INTERNATIONAL, INC.
IBG LLC, ET AL.

STEVEN F. BORSAND

TRADING TECHNOLOGIES INTERNATIONAL
222 S. RIVERSIDE PLAZA

SUITE 1100

CHICAGO, IL 60606

ANDREW M. GROSSMAN

BAKER & HOSTETLER LLP

1050 CONNECTICUT AVE., NW
WASHINGTON, DC 20036
202-861-1697
AGROSSMAN@BAKERLAW.COM
